                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 
                
                     OFFICE OF INSPECTOR GENERAL 
                

                



                     EPA Oversight Addresses
                     Thermal Variance and Cooling
                     Water Permit Deficiencies But
                     Needs to Address Compliance
                     With Public Notice Requirements

                     Report No. 13-P-0264                    May 23, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:	                          Charles Brunton
                                               Dan Engelberg
                                               Tiffine Johnson-Davis
                                               Jayne Lilienfeld-Jones
                                               Tim Roach
                                               Gerry Snyder




Abbreviations

CFR            Code of Federal Regulations
CWA            Clean Water Act
CWIS           Cooling Water Intake Structure
EPA            U.S. Environmental Protection Agency
NPDES          National Pollutant Discharge Elimination System
OIG            Office of Inspector General
OW             Office of Water
PQR            Permit Quality Review


Cover photo:       Brayton Point Power Facility, Somerset, Massachusetts. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  email:       OIG_Hotline@epa.gov                       write:   EPA Inspector General Hotline
  phone:       1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:         202-566-2599                                       Mailcode 2431T
  online:      http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                              13-P-0264
                                                                                                          May 23, 2013
                        Office of Inspector General


                        At a Glance

Why We Did This Review                EPA Oversight Addresses Thermal Variance and
                                      Cooling Water Permit Deficiencies But Needs to
We evaluated the U.S.
Environmental Protection              Address Compliance With Public Notice Requirements
Agency’s (EPA’s) oversight of
regional and state compliance          What We Found
with Clean Water Act (CWA)
§316(a) and (b) requirements.         Since the 1980s, EPA has had an oversight process, known as Permit Quality
These requirements are in place       Reviews (PQRs), to promote permit quality and ensure a reasonable degree of
to help protect aquatic               national consistency with regard to core program requirements. The PQRs
organisms from the impacts of         EPA conducted from 2007 to 2010 identified a number of deficiencies in
thermal discharges and cooling        NPDES permits, which EPA made recommendations to improve. Our review of
water intake structures. CWA          EPA’s PQR oversight process found it has generally been effective in
§316(b) requires that NPDES           determining the quality of permits. Like EPA, we found deficiencies in permits
permits for facilities with cooling   or supporting documents. For example, 55 percent of the fact sheets in our
water intake structures ensure        sample did not contain an explanation of the state’s or EPA’s decision in the
that the location, design,            permit that facilities use the best technology available to minimize the
construction, and capacity of the     environmental impact of the cooling water intake structures regulated under
structures reflect the best           CWA §316(b). Conversely, 75 percent of the fact sheets we reviewed
technology available to minimize      contained an explanation of the state’s or EPA’s decision to approve the
harmful impacts on the                facilities’ requests for CWA §316(a) thermal variances. A fact sheet briefly
environment. The permitting           presents the principal facts and the significant factual, legal, methodological,
authority may issue a variance        and policy questions considered in preparing the draft permit.
under CWA §316(a) to allow
facilities to discharge cooling       None of the public notices we reviewed contained all of the required statements
waters at an alternative, less        describing the proposed §316(a) thermal variance. We found that EPA’s quality
stringent thermal effluent limit      assurance reviews are not designed to address whether public notices for
that is still protective of aquatic   permits with a §316(a) thermal variance contain required information under the
life.                                 Code of Federal Regulations (CFR) per 40 CFR §124.57. As a result, EPA’s
                                      quality assurance reviews did not identify deficiencies in public notices. EPA
This report addresses the             established this regulation so that permitting authorities would use public
following EPA Goal or                 notices to inform the public about proposed thermal variances.
Cross-Cutting Strategy:
                                       Recommendation and Planned Agency Corrective Action
 Protecting America’s waters.
                                      We recommend that the Assistant Administrator for Water develop and
                                      implement oversight mechanisms that will help states and regions consistently
                                      comply with CWA §316(a) public notice requirements. The Agency agreed with
                                      our recommendation and committed to implementing corrective actions by
                                      June 30, 2013.

                                       Noteworthy Achievements
For further information, contact
our Office of Congressional and       The Office of Water is working to improve the quality of permits through its
Public Affairs at (202) 566-2391.     PQR process. Quality assurance evaluations assess whether NPDES permits
                                      written by states and regions comply with regulations. Through this review
The full report is at:                process, the Office of Water works to promote national consistency in permits,
www.epa.gov/oig/reports/2013/         identify best practices in state NPDES programs, and recommend
20130523-13-P-0264.pdf                opportunities for improvement in state and regional permit programs.
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                  THE INSPECTOR GENERAL




                                             May 23, 2013

MEMORANDUM

SUBJECT:      EPA Oversight Addresses Thermal Variance and Cooling Water Permit Deficiencies
              But Needs to Address Compliance With Public Notice Requirements
              Report No. 13-P-0264

FROM:         Arthur A. Elkins Jr.

TO:           Nancy K. Stoner, Acting Assistant Administrator
              Office of Water

This is our report on the subject evaluation conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

Action Required

Your response to the draft report included a proposed corrective action and completion date. The
recommendation is open with corrective actions underway. We have no objections to the further release
of this report to the public. We will post this report to our website at http://www.epa.gov/oig.

If you or your staff members have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or copper.carolyn@epa.gov;
or Dan Engelberg, Product Line Director, at (202) 566-0830 or engelberg.dan@epa.gov.
EPA Oversight Addresses Thermal Variance and                                                                                   13-P-0264
Cooling Water Permit Deficiencies But Needs to Address
Compliance With Public Notice Requirements


                                      Table of Contents 

   Purpose........................................................................................................................    1


   Background .................................................................................................................       1


           Regulations Governing CWA §316(a) Thermal Variances ...................................                                    1

           Regulations Pursuant to CWA §316(b) Cooling Water Intake Structures ............                                           2

           EPA and States Share Responsibility for Regulating Facilities Under 

                 CWA §316(a) and §316(b) ........................................................................                     2

           Public Notices Alert the Public to Proposed Permits ............................................                           4

           EPA’s Office of Water Conducts Permit Quality Reviews ...................................                                  4


   Noteworthy Achievements ........................................................................................                   5


   Scope and Methodology ............................................................................................                 5


           Prior Reports ........................................................................................................     6


   Results of Review ......................................................................................................           6


           Administration of CWA §316(a) and §316(b) Needs Improvement ......................                                         7

           OW Identified Deficiencies and Regions Are Addressing 

                CWA §316(a) and §316(b) Permit Issues .................................................                               8


   Conclusion ..................................................................................................................      8


   Recommendation ........................................................................................................            9


   Agency Response and OIG Comment ......................................................................                             9


   Status of Recommendations and Potential Monetary Benefits..............................                                           10




Appendices
   A       Permits Reviewed by OIG..................................................................................                 11 


   B       Agency Response to Draft Report....................................................................                       12 


   C       Distribution .........................................................................................................    14

Purpose

            We evaluated National Pollutant Discharge Elimination System (NPDES) 

            program permits from U.S. Environmental Protection Agency (EPA) 

            Regions 1, 5, and 6, to review the oversight of regions’ and states’ compliance 

            with Clean Water Act (CWA) §316(a) and (b) requirements. These requirements 

            are in place to help protect aquatic organisms from the impacts of thermal 

            discharges and cooling water intake structures.


Background

            Power plants and manufacturing facilities account for approximately half of all
            water withdrawals in the United States. Most of the withdrawn water cools the
            steam used to produce electricity. According to the U.S. Geologic Survey’s report
            Estimated Use of Water in the United States in 2005, power and self-supplied
            industrial facilities withdraw an estimated 219 billion gallons of water per day.

            Withdrawing surface waters through cooling water intake structures (CWISs) at
            power plants causes adverse environmental impacts by pulling large numbers of
            fish, larvae, eggs, and other small aquatic organisms into a facility’s cooling
            system. Once pulled in, they may be killed by heat, stress, or chemical exposure
            (entrainment). Larger fish, crustaceans, and even marine mammals may be killed
            or injured when they are trapped against screens at the front of an intake structure
            by the force of water being drawn into the system (impingement). EPA estimates
            that 2.1 billion fish, crabs, and shrimp are killed by impingement and entrainment
            annually.

            The environment may also be impacted when the cooling water is discharged.
            Because the temperature of the effluent is higher than that of the receiving water,
            it may negatively affect plant growth, ecosystem composition, and fish
            reproduction and migration.

            Regulations Governing CWA §316(a) Thermal Variances

            Thermal effluents are regulated because heat is identified as a pollutant under
            CWA 502(6). A facility may be authorized to discharge pollutants into U.S.
            waters by obtaining an NPDES permit. Section 316(a) authorizes the permitting
            authority (either the authorized state or EPA) to impose alternative, less stringent
            effluent limits for the control of the thermal component of a discharge in lieu of
            the effluent limits that would otherwise be required under CWA §301 or §306.
            A variance allows facilities to discharge cooling water at an alternative, less
            stringent thermal effluent limit that is still protective of aquatic life. To obtain a
            CWA §316(a) thermal variance, the operator of a facility must demonstrate to the
            permitting authority that an alternative thermal discharge limit will be protective
            of the balanced, indigenous population of shellfish, fish, and wildlife. This



13-P-0264                                                                                         1
                   alternative effluent limit, or variance, is only in effect for the duration of the
                   permit.

                   Regulations Pursuant to CWA §316(b) Cooling Water
                   Intake Structures

                   Under CWA §316(b), facilities with NPDES permits and CWISs must ensure that
                   the location, design, construction, and capacity of the CWIS reflects the best
                   technology available to minimize adverse environmental impacts. EPA completed
                   three phases of rulemaking to address cooling water intakes. The Phase I rule,
                   promulgated in 2001, covers new facilities; Phase II, promulgated in 2004, covers
                   large existing electric generating plants; and Phase III, promulgated in 2006,
                   covers certain existing facilities and new offshore and coastal oil and gas
                   extraction facilities.

                   EPA suspended the Phase II existing facilities rule in 2007 as a result of a ruling
                   by the U.S. Court of Appeals for the Second Circuit.1 Until a new regulation is
                   developed, Phase II existing facilities are subject to the only portion of that
                   regulation still in effect under the Code of Federal Regulations (CFR) in
                   40 CFR 125.90(b). Under current regulations, including 40 CFR 401.14, permit
                   writers must use “best professional judgment” on a case-by-case basis to identify
                   the best technology available to minimize adverse environmental impacts.
                   According to a recent modification of the settlement agreement between EPA and
                   an environmental organization, a new set of regulations will be promulgated in
                   2013.2 The new rule will cover approximately 1,260 existing facilities that
                   withdraw at least 2 million gallons per day of cooling water.

                   EPA and States Share Responsibility for Regulating Facilities
                   Under CWA §316(a) and §316(b)

                   Both EPA and states have responsibilities for protecting surface waters from harm
                   under the CWA. EPA has granted authority to 46 states to issue NPDES permits
                   and EPA has not granted this authority in 4 states and the District of Columbia, as
                   well as with Indian tribes and in U.S. territories.3 While authorized states issue
                   NPDES permits, EPA retains the authority to review permits for compliance with
                   regulations. The following chart is a general summary of the permitting process.




1
   Riverkeeper, Inc. v. EPA, 475 F.3d 83 (2d Cir. 2007), rev’d in part sub. nom. Entergy Corp. v. Riverkeeper, Inc., 556 U.S. 208

(2009).

2
   Second Amendment to Settlement Agreement among the EPA, Plaintiffs in Cronin et. al. v. Reilly, 93 CIV. 314 (LTS) (SDNY), 

and Plaintiffs in Riverkeeper. et. al. v. EPA, 06 CIV. 12987 (PKC) (SDNY) (available through the EPA website at:

http://water.epa.gov/lawsregs/lawsguidance/cwa/316b/upload/modified-settlement-agreement-with-Riverkeeper.pdf).

3
   The Virgin Islands and Maine are only partially authorized. Maine’s NPDES authority does not include CWA§316(b) 

   determinations. 


13-P-0264                                                                                                                      2
            Figure 1: State NPDES Permitting Process — Key Steps




            Source: Office of Inspector General (OIG) analysis of EPA NPDES 

            Permit Writers Manual.


            The permitting authority reviews the facility’s permit application and prepares the
            draft permit, the fact sheet, and the public notice. A fact sheet briefly presents the
            principal facts and the significant factual, legal, methodological, and policy
            questions considered in preparing the draft permit. Under 40 CFR §124.8(b)(4),
            the fact sheet shall include a summary of the basis for the draft permit conditions,
            and if a CWA§316(a) is requested, reasons why these variances are or are not
            justified must be included under and 40 CFR §124.8(b)(5). For example, any


13-P-0264                                                                                        3
                      permit that contains a thermal variance issued under §316(a) needs to describe
                      and justify that variance in its fact sheet. For a permit issued pursuant to §316(b),
                      the fact sheet must describe and the permit must require that the location, design,
                      construction, and capacity of the structures reflect the best technology available to
                      minimize harmful impacts on the environment.

                      Public Notices Alert the Public to Proposed Permits

                      Public notices inform citizens about proposed NPDES permits issued by
                      permitting authority (states or EPA). Compliance with public notice requirements
                      is important because incomplete or inadequate public notices hinder the public’s
                      awareness and its opportunity for input and involvement in permitting authorities’
                      decisions pertaining to waterbody protections. The permitting authority publishes
                      public notices of draft permits so that the public has an opportunity to review and
                      comment on a draft permit and permit conditions. According to 40 CFR
                      §124.10(d), the public notice must contain basic information about the permitted
                      facility, contact information, and public hearing notification (if applicable). If a
                      facility’s draft permit contains a §316(a) thermal variance, the public notice must
                      contain specific requirements as identified in 40 CFR §124.57. Because of the
                      2007 suspension of the Phase II existing facilities rule as described above, we are
                      not reporting on public notice compliance related to §316 (b) decisions in this
                      report. EPA plans to release new Phase II existing facility rules in June 2013.

                      EPA’s Office of Water Conducts Permit Quality Reviews

                      EPA’s Office of Water (OW) evaluates the quality of permits through its NPDES
                      Permit Quality Review (PQR) process.4 According to OW staff, the PQRs began in
                      the mid 1980s. This is a process EPA uses to assess whether NPDES permits are
                      developed consistent with applicable requirements in the CWA and environmental
                      regulations. Between 2007 and 2010, OW conducted PQRs in eight regions. One
                      goal of the PQR was to identify how permitting authorities have incorporated §316
                      provisions into permit requirements. The universe of potential NPDES permits for
                      review was determined using EPA’s Permit Compliance System database and the
                      lists of facilities developed during the rulemaking for §316(b). In consultation with
                      the 8 regions, EPA selected 112 permits to review.5 OW found that decisions
                      regarding thermal discharge variances under §316(a) and permit conditions
                      implementing §316(b) were not well documented in state or EPA permits.
                      According to staff in OW, the PQR process provides a list of findings and
                      recommendations that are tracked biannually.




4
     NPDES PQR findings for Regions 2, 3, 5, 7, 9, and 10 are available at http://cfpub.epa.gov/npdes/pqr.cfm. 

5
 In total, for the §316 core review, 112 permits were reviewed – Region 1 (17), Region 2 (12), Region 3 (16), Region 4 (23), 

Region 5 (19), Region 7 (7), Region 9 (7), and Region 10 (11). 



13-P-0264                                                                                                                        4
Noteworthy Achievements
                      OW is working to improve the quality of permits through its PQR process. These
                      quality assurance evaluations assess whether NPDES permits written by states
                      and regions comply with regulations. Through this review process, OW works to
                      promote national consistency in permits, identify successes in implementation of
                      state NPDES programs, and recommend opportunities for improvement in state
                      and regional permit programs.

Scope and Methodology

                      Based on lists containing 262 permits provided by Regions 1, 5, and 6, we
                      selected a total of 29 permits to review (appendix A provides a detailed list). We
                      selected these permits because they represent permits issued by states and regions,
                      permits from locations with high thermoelectric power water withdrawal, and/or
                      permits where there had been no prior EPA OIG audit coverage. Eight permits in
                      our sample contained a thermal variance regulated under §316(a). All 29 permits
                      contained a CWIS that is regulated under §316(b). We collected permit
                      documents through requests to regions and states. With one exception, we
                      obtained all of the documents requested. We did not receive a copy of the public
                      notice for one of the NPDES permits issued by the State of Vermont. This did not
                      affect our conclusions reached or our ability to address our evaluation objectives.
                      To determine states’ compliance with §316(a) and §316(b) regulations, we
                      evaluated state permits and documents that EPA regional staff reviewed, as well
                      as a sample of state permits and documents that were not reviewed by EPA
                      regional staff. Because the §316(b) Phase II regulations were suspended in 2007,
                      we only reviewed public notices for compliance with §316(a) regulations.

                      We reviewed §316(a) and §316(b), as well as applicable regulations, to gain an
                      understanding of how these sections of the law are implemented. We interviewed
                      staff from OW and Regions 1, 5, and 6 about EPA’s oversight of states’
                      compliance with §316 requirements. During our field work we learned about
                      OW’s regional PQRs and we incorporated the review of those documents into our
                      evaluation. In addition to reviewing PQR reports for Regions 2, 3, 5, 7, 9, and 10,
                      we reviewed a draft PQR report for Region 1 and a summary of draft findings for
                      Region 4.6 We also contacted the regions for information about oversight of
                      NPDES permits and progress implementing changes based on OW’s PQR
                      recommendations.

                      We conducted our review from January to June 2012 in accordance with generally
                      accepted government auditing standards. Those standards require that we plan and
                      perform our review to obtain sufficient, appropriate evidence to provide a
                      reasonable basis for our findings and conclusions based on our objectives. We


6
    We did not review PQRs for Regions 6 and 8 since the reports had not been released at the time of our evaluation.


13-P-0264                                                                                                               5
            believe that the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our objective.

            Prior Reports

            We reviewed the following reports related to NPDES permits containing §316(a)
            thermal variances and cooling water intake structures regulated under §316(b):

               EPA OIG
                Report No. 2007-P-00038, Decision Needed on Regulating the Cooling
                  Lagoons at the North Anna Power Station, September 20, 2007.
                Report No. 11-P-0221, Oversight of North Carolina’s Renewals of
                  Thermal Variances, May 9, 2011.

               U.S. Government Accountability Office
               	 Report No. GAO-04-589R, Environmental Protection Agency: National
                   Pollutant Discharge Elimination System--Final Regulations to Establish
                   Requirements for Cooling Water Intake Structures at Phase II Existing
                   Facilities, July 22, 2004.
               	 Report No. GAO-10-23, Energy-Water Nexus: Improvements to Federal
                   Water Use Data Would Increase Understanding of Trends in Power Plant
                   Water Use, October 16, 2009.

               Congressional Research Service
               	 Report No. R41786, Cooling Water Intake Structures: Summary of EPA’s
                   Proposed Rule, July 19, 2011.

Results of Review

            Since the 1980s, EPA has had an oversight process, known as PQRs, to promote
            permit quality and ensure a reasonable degree of national consistency with regard
            to core program requirements. The PQRs EPA conducted from 2007 to 2010
            identified a number of deficiencies in NPDES permits, which EPA made
            recommendations to improve. Our review of EPA’s PQR oversight process found
            it has generally been effective in determining the quality of permits. Like EPA,
            we found deficiencies in permits or supporting documents. For example,
            55 percent of the fact sheets in our sample did not contain an explanation of the
            state’s or EPA’s decision in the permit that facilities use the best technology
            available to minimize the environmental impact of the cooling water intake
            structures regulated under CWA §316(b). Conversely, 75 percent of the fact
            sheets we reviewed contained an explanation of the state’s or EPA’s decision to
            approve the facilities’ requests for CWA §316(a) thermal variances. A fact sheet
            briefly presents the principal facts and the significant factual, legal,
            methodological, and policy questions considered in preparing the draft permit.




13-P-0264                                                                                    6
            None of the public notices we reviewed contained all of the required statements
            describing the proposed §316(a) thermal variance. We found that EPA’s quality
            assurance reviews are not designed to address whether public notices for permits
            with a §316(a) thermal variance contain required information under 40 CFR
            §124.57. As a result, EPA’s quality assurance reviews did not identify
            deficiencies in public notices. EPA established this regulation so that permitting
            authorities would use public notices to inform the public about proposed thermal
            variances. Incomplete or inadequate public notices hinder the public’s awareness
            and its opportunity for input and involvement in permitting authorities’ decisions
            pertaining to waterbody protections under §316(a).

            Administration of CWA §316(a) and §316(b) Needs Improvement

            We reviewed eight permits and associated fact sheets containing CWA §316(a)
            thermal variances. Most of the permits in our sample complied with §316(a)
            regulations and we did not identify any oversight deficiencies. This is notable
            since the OIG has reported oversight of state programs as an EPA management
            challenge for the past several years. Region 5 provided oversight of state-issued
            permits by reviewing the draft permit and OW conducted permit quality reviews
            that included permit analyses of §316(a) in Regions 1 and 5. Region 1 issued four
            of these permits. The thermal variance requirements and justification in these four
            permits were well documented in the permit and fact sheet. The other four permits
            were issued by Illinois, Ohio, Michigan, and Vermont. In Ohio and Illinois,
            Region 5 raised concerns during its review of the draft permit about the lack of
            support for the state’s decision to approve the thermal variance. The states
            modified the final permits to address these concerns. Although the Vermont
            permit was not reviewed by Region 1, the permit and fact sheets contained
            sufficient explanation of the thermal variance.

            Alternatively, 17 out of 29 (59 percent) of the state and EPA permits and 16 out
            of 29 (55 percent) of the fact sheets we reviewed did not comply with 40 CFR
            §125.90(b). This regulation states that a facility must meet requirements under
            §316(b) to minimize adverse environmental impacts as determined by the director
            on a case-by-case, best professional judgment basis. The permitting authority’s
            justification must be documented in the fact sheet, while the permit must lay out
            the final decision. However, the fact sheets for 55 percent of the permits we
            reviewed did not contain this justification. Instead of requiring facilities to install
            the best technology available, about a quarter of the state permits in our sample
            required facilities to collect information about the impacts of existing structures.

            The public notices we reviewed also did not comply with regulations. We
            reviewed public notices for the permits containing a §316(a) thermal variance
            (see appendix A). None of the public notices contained all of the required
            statements describing the proposed §316(a) thermal variance. We found similar
            deficiencies during our 2011 review of North Carolina permits containing §316(a)
            thermal variances. While the OW’s PQRs examined whether other types of



13-P-0264                                                                                         7
            permits complied with state and local public notice requirements, the checklist for
            permits containing a §316(a) thermal variance did not contain specific questions
            to verify that the public notice complied with the applicable regulation
            (40 CFR §124.57). As a result, OW did not identify this deficiency in state and
            regional permit packages. Because of the 2007 suspension of the Phase II existing
            facilities rule as described above, we are not reporting on public notice
            compliance related to §316(b) decisions in this report.

            OW Identified Deficiencies and Regions Are Addressing CWA §316(a)
            and §316(b) Permit Issues

            OW found that decisions regarding thermal discharge variances under §316(a)
            and permit conditions implementing §316(b) were not well documented in state or
            EPA permits. The PQR reports did not identify the cause of these deficiencies but
            presented the regions with recommendations to improve compliance with
            regulatory requirements. The general recommendation was for regions and states
            to re-evaluate §316(a) thermal variances and §316(b) requirements at each permit
            renewal and document the basis in the permit and fact sheet. Prior determinations
            are also to be documented in the fact sheet and reflected in the current permit, as
            appropriate. We contacted the eight regions which have final or draft PQR reports
            to determine their progress in implementing OW’s recommendations. All eight
            regions indicated that they are implementing the PQR recommendations, which
            are tracked by OW on a semiannual basis. We believe OW’s recommendations
            pertaining to §316(a) and (b) and regional follow-up are sufficient and that no
            further action is necessary at this point.

Conclusion
            OW has made strides in addressing CWA §316(a) and (b) permit deficiencies
            through its permit quality reviews and through recommendations for improved
            regional oversight. However, we found that none of the state and regional public
            notices in our sample contain all of the required statements describing the
            proposed §316(a) thermal variance. We also found that OW did not identify these
            deficiencies during the PQR process. We concluded that this is a weakness in
            OW’s PQR process and oversight. Providing the public with the proper notice,
            as regulations require, is a central part of better protecting the environment and
            public health through public engagement and by obtaining information and input
            from the public. The information gaps about thermal variances in public notices
            indicate a need for greater transparency and EPA oversight of states’ public
            notices. Improving that aspect of oversight of state NPDES permits can be
            achieved through an improved PQR review process. Further, by increasing
            oversight of public notices, regions can help states comply with public notice
            requirements once the §316(b) existing facilities regulation is final and state
            directors begin implementing the new rule.




13-P-0264                                                                                     8
Recommendation
            We recommend that the Assistant Administrator for Water:

               1. 	 Develop and implement oversight mechanisms that will help states and
                    regions consistently comply with CWA §316(a) public notice requirements.

Agency Response and OIG Comment
            The Agency agreed with our recommendation and provided a timeline for
            implementing corrective actions. We revised the final report based on technical
            comments received to the draft report.

            EPA’s comments noted that reviewing and granting CWA §316(a) thermal
            variances is a comprehensive and technical process based on biology, which
            proves to be a difficult endeavor for NPDES permit writers who are often
            engineers by training. EPA’s comments pointed out that CWA §316(b)
            determinations of best technology available are complicated by a reluctance of
            permit writers to require the installation of new technologies, which may require
            expensive capital investments, prior to finalization of standards for existing
            cooling water intake structures under CWA §316(b). The comment concluded
            with a statement that EPA is working to finalize these standards by June 27, 2013,
            under a modified settlement agreement.

            We acknowledge the technical challenges associated with permit determinations
            for thermal variances under CWA §316(a), and the difficulties in implementing an
            NPDES permit program when parts of the CWA §316(b) regulations are under
            development. We also recognize that the permit quality review process is
            designed to identify and correct deficiencies, which in time should aid in the
            implementation of the new CWA §316(b) regulations.




13-P-0264                                                                                     9
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                        POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                       BENEFITS (in $000s)

                                                                                                            Planned
    Rec.    Page                                                                                           Completion   Claimed    Agreed-To
    No.      No.                         Subject                       Status1      Action Official           Date      Amount      Amount

     1        9     Develop and implement oversight mechanisms that         O    Assistant Administrator    6/30/13
                    will help states and regions consistently comply                    for Water
                    with CWA §316(a) public notice requirements.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




13-P-0264                                                                                                                                 10
                                                                                                          Appendix A

                                 Permits Reviewed by OIG
                                                                                     Draft permit
                                                                §316(a) and (b)       reviewed         Part of OW’s
    Permit number and facility            Region      State    regulated status      by region *         PQR **
NH0020338 – FPL Energy Seabrook,
LLC                                           1        NH      (a) and (b)           N/A                    Yes
VT0000264 – Entergy Nuclear
Vermont Yankee                                1        VT      (a) and (b)           No                     Yes
MA0003654 – Brayton Point                     1        MA      (a) and (b)           N/A                    No
MA0004928 – Mirant Canal                      1        MA      (a) and (b)           N/A                    Yes
MA0004898 – Mirant Kendall Station            1        MA      (a) and (b)           N/A                    Yes
CT0000957 – Pfizer                            1        CT      (b) only              No                     Yes
CT0026476 – Algonquin Power                   1        CT      (b) only              No                     No
ME0002160 – VERSO Bucksport                   1        ME      (b) only              No                     Yes
ME0021521 – S.D. Warren Company               1        ME      (b) only              No                     No
NH0000655 – Pulp and Paper of
America (aka Fraser Papers)                   1        NH      (b) only              N/A                    Yes
CT0020389 – Anocoil Corp.                     1        CT      (b) only              No                     No
ME0000272 – Wyman Station                     1        ME      (b) only              No                     Yes
VT0020893 – Ryegate Associates                1        VT      (b) only              No                     Yes
CT0003263 – Millstone                         1        CT      (b) only              Yes                    Yes
IL0002224 – Excelon Dresden                   5        IL      (a) and (b)           Yes                    No
OH0009261 – DP&L OH Hutchings                 5        OH      (a) and (b)           Yes                    No
WI0002381 – Alliant Nelson Dewy               5        WI      (b) only              No                     No
MI0001457 – Entergy- Palisades
Power Plant                                   5         MI     (b) only              Yes                    No
MI0005827 – AEP Cook                          5         MI     (a) and (b)           Yes                    Yes
MI0038105 – Wyandotte Electric
Power                                         5        MI      (b) only              No                      No
IN0000337 – US Steel                          5        IN      (b) only              No                      No
OH0002461 – BP-Husky Toledo                   5        OH      (b) only              Yes                     No
OK0000451 – OG&E Seminole                     6        OK      (b) only              Yes                     X
LA0002887 – CLECO                             6        LA      (b) only              Yes                     X
TX0119288 – Lamar Power Partners              6        TX      (b) only              No                      X
LA0002925 – SWEPCO                            6        LA      (b) only              Yes                     X
TX0001066 – Luminant                          6        TX      (b) only              No                      X
LA0007439 – Entergy Waterford                 6        LA      (b) only              Yes                     X
TX0070068 – Coleto Creek                      6        TX      (b) only              No                      X
Source: OIG analysis.

 * “N/A” - Not Applicable, denotes permits that were prepared by Region 1 for non-authorized states.
** 	 “X” - A list of facilities evaluated as part of the PQR review will not be available until the Region 6 PQR report
     is finalized.




13-P-0264                                                                                                                 11
                                                                                  Appendix B


                     Agency Response to Draft Report

                                          MAR - 5 2013

MEMORANDUM

SUBJECT:       Response to the Office of Inspector General Draft Audit Report, EPA Is
               Addressing Thermal Variance and Cooling Water Permit Deficiencies But Needs
               to Evaluate Public Notices (Project No. OPE-FY12-003)

FROM:          Nancy K. Stoner
               Acting Assistant Administrator

TO:            Carolyn Copper
               Assistant Inspector General for Program Evaluation

Thank you for the opportunity to review and respond to the Office of Inspector General (OIG)
draft audit report, EPA Is Addressing Thermal Variance and Cooling Water Permit Deficiencies
But Needs to Evaluate Public Notices. The purpose of this memorandum is to transmit the Office
of Water’s (OW) response to the OIG draft report and its recommendations. This memorandum
addresses the report’s recommendations; Attachment 1 provides detailed comments on the
report. Below is the recommendation in the draft report with our response:

OW Response to Report Recommendations:

Agreements
No Recommendation                 High-Level Intended Corrective Action(s)   Estimated
 .                                                                           Completion by FY
1     Develop and implement       OW will include an item on the National    Third Quarter FY
      oversight mechanisms        Pollutant Discharge Elimination System     2013
      that will help states and   (NPDES) Permit Review Checklist so
      regions consistently        that future NPDES Permit Quality
      comply with CWA § 316       Reviews will serve as an oversight
      (a) public notice           mechanism to assess consistency of
      requirements.               applicable NPDES permits with CWA §
                                  316(a) public notice requirements.

OW welcomes the opportunity to continue working with OIG to implement these
recommendations. If you have any questions, please contact Randy Hill, Acting Director of the
Office of Wastewater Management, at (202) 564-0748.




13-P-0264                                                                                   12
Attachment

cc. Randy Hill
    Dan Engelberg
    Deborah Nagle




13-P-0264           13
                                                                              Appendix C

                                       Distribution
Office of the Administrator 

Assistant Administrator for Water 

Agency Follow-Up Official (the CFO) 

Agency Follow-Up Coordinator 

General Counsel 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for External Affairs and Environmental Education 

Regional Administrator, Region 1 

Regional Administrator, Region 5 

Regional Administrator, Region 6 

Audit Follow-Up Coordinator, Office of Water 

Audit Follow-Up Coordinator, Region 1 

Audit Follow-Up Coordinator, Region 5 

Audit Follow-Up Coordinator, Region 6 





13-P-0264                                                                             14
